PENSION BENEFIT GUARANTY CORPORATION




  SEMIANNUAL REPORT
   TO THE CONGRESS




OFFICE OF INSPECTOR GENERAL


      A PRIL 1, 2001 - SEPTEMBER 30, 2001
                                                                         Office of Inspector General

                                                                            October 31, 2001




The Honorable Elaine L. Chao
Chairman, PBGC Board of Directors

       It is my pleasure to submit this twenty-fifth Semiannual Report to the Congress.
This report summarizes the major activities and accomplishments of the Pension Benefit
Guaranty Corporation (PBGC or Corporation) Office of Inspector General (OIG) for the six-
month period ending September 30, 2001. Our accomplishments were made possible by
the dedicated efforts of a committed and professional staff.

        Our work this reporting period has resulted in significant operational benefit to
PBGC. Our efforts were directed to increased economy, efficiency, and quality of PBGC's
operations and combating actual or potential occurrences of waste, fraud, and misuse of
Government funds. My office issued eight (8) reports in the audit area, including the
management letter relating to the audit of PBGC’s financial statements; a penetration re-
test of PBGC’s network security; and PBGC’s use of the government credit card for micro-
purchases.     At the request of PBGC Executive management, we evaluated the controls
over handling and processing original documents that PBGC requires participants to
submit for certain benefit determinations.

        In the investigative area, we opened fourteen (14) and closed nine (9) investigations.
Of the investigations we closed this period, several involved PBGC contract employees,
including one investigation that found multiple contractor employees were accessing and
distributing pornography using PBGC’s electronic resources. Four of our closed cases
involved pension fraud. One of these involved the daughter of a deceased participant who
failed to notify PBGC of his death and cashed her father’s pension checks. As a result of
our investigation, she entered into an agreement to repay PBGC more than $11,000.

        To accomplish our work, I seek to maintain productive professional working
relationships with PBGC’s Acting Executive Director, managers, employees, and the
Congress. I look forward to continuing these relationships, as the OIG strives to maintain
the highest levels of integrity and quality in the Corporation's programs and operations,
and help PBGC meet its important challenges.



                                             Sincerely,




                                             Wayne Robert Poll
                                             Inspector General
Enclosure
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                        PENSION    BENEFIT   GUARANTY
CORPORATION




EXECUTIVE SUMMARY


This is the twenty-fifth semiannual report to the Congress summarizing the activities and
accomplishments of the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector
General (OIG) for the period April 1, 2001 through September 30, 2001. Our efforts were
directed toward performing audits, inspections, and evaluations of the Corporation's programs
and operations; conducting several large and complex investigations; and providing technical
assistance and advice on Corporate programs.

In the audit area, we issued eight (8) reports, including:

   •    FY 2000 Financial Statement Audit – Management Letter (see page 2);
   •    Review of Sensitive Payments (see page 2);
   •    PBGC’s Use of the Government Purchase Card for Micro-purchases (see page 3);
   •    Penetration Testing 2001 – An Update (see page 3); and
   •	   PBGC’s Controls Over Handling and Processing The Original Proof Documents
        Required for Benefit Eligibility (see page 3).


In the investigative area, we opened fourteen (14) new investigative cases during the reporting
period and closed nine (9) cases. Among the most significant cases closed this period we
found:

   •	 Multiple contract employees misused PBGC’s electronic resources to access
      and distribute pornography (see page 10);
   •	 A deceased participant’s daughter had cashed pension benefit checks; she
      entered into an agreement to repay $11,457 to PBGC (see page 10);
   •	 A participant filed a fraudulent form to waive his spouse’s entitlement to a
      benefit (see page 10); and
   •	 We could not determine who was responsible for the loss or theft of original
      proof documents submitted by participants because the documents were not
      safeguarded or controlled; new procedures were implemented based on
      suggestions made in the investigation (see page 10).


During the period, we reviewed regulations relating to premium payments by plan sponsors
and benefit payments made by PBGC, and participated in several Corporate initiatives to
improve PBGC.

In our Strategic Planning (see page 13) we added a sixth high-risk area this year: Security of
Information Technology Resources. The importance of IT security has significantly increased
because of the phenomenal growth in Internet usage, the move toward e-government, and the
deployment of intranets. In addition, the government has been subject to increasing attacks
by hackers, information viruses, employee fraud, and computer abuse. In the past three
reporting periods, we completed several security evaluations, including two penetration
testings, to help PBGC management focus on strengthening security controls.




SEPTEMBER 2001
                                                 i
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                            PENSION        BENEFIT     GUARANTY
CORPORATION




TABLE OF CONTENTS

               LETTER TO THE CHAIRMAN

               EXECUTIVE SUMMARY .................................................................                i


               TABLE OF CONTENTS ....................................................................             ii 


               LIST OF TABLES.............................................................................        iii 


               INTRODUCTION ..............................................................................        1


                         The Pension Benefit Guaranty Corporation
                         The Office of Inspector General

               AUDIT ACTIVITIES ........................................................................          2


                         Overview

                         Audits and Evaluations 

                         Audit Follow-up and Resolution 

                         Access to Information 

                         PBGC Management - Inspector General Disagreements


               INVESTIGATORY ACTIVITIES .......................................................                   9


                         Overview

                         Activity This Period

                         Significant Investigations                   


               OTHER OFFICE OF INSPECTOR GENERAL ACTIVITIES .............                                         12


                         Review of Proposed Statutory and Regulatory Changes 

                         OIG and Agency Consultation 

                         Liaison With the United States General Accounting Office


               STRATEGIC PLANNING .................................................................               13 


                         Risk Areas and OIG Activities

               GLOSSARY ......................................................................................    20





SEPTEMBER 2001
                                                            ii 

SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                            PENSION    BENEFIT      GUARANTY
CORPORATION




LIST OF TABLES


       TABLE 1 - INSPECTOR GENERAL ISSUED REPORTS .....................................        6


       TABLE 2 - REPORTS ISSUED WITH QUESTIONED COSTS .............................            7


       TABLE 3 - REPORTS ISSUED WITH RECOMMENDATIONS 

                   THAT FUNDS BE PUT TO BETTER USE .....................................       8


       TABLE 4 - STATISTICAL TABLES OF INVESTIGATIONS .................................        11


       TABLE 5 - CROSS-REFERENCE TO REPORTING REQUIREMENTS

                   OF THE INSPECTOR GENERAL ACT ...........................................    19





SEPTEMBER 2001
                                                 iii 

SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




INTRODUCTION 

THE PENSION BENEFIT GUARANTY CORPORATION

       The Pension Benefit Guaranty Corporation (PBGC or Corporation) was
       established under Title IV of the Employee Retirement Income Security Act of
       1974 (ERISA), as amended, 5 U.S.C. § 1301-1461, as a self-financing, wholly
       owned federal government corporation to administer the pension insurance
       program. ERISA requires that PBGC (1) encourage the continuation and
       maintenance of voluntary private pension plans; (2) provide for the timely and
       uninterrupted payment of pension benefits to participants and beneficiaries; and
       (3) maintain premiums at the lowest level consistent with carrying out PBGC's
       obligations.

       For about 43 million Americans, the PBGC provides assurance that their
       retirement benefits are safe now and for the future. The PBGC protects the
       pensions of participants in certain defined benefit pension plans, i.e., plans that
       promise to pay definitely determinable retirement benefits. Such defined benefit
       pension plans may be sponsored individually or jointly by employers and by
       unions. Currently, there are approximately 226,700 participants receiving
       benefit payments from PBGC. Additionally, in its fiscal year 2000 financial
       statement, the PBGC reported that it has assets of about $21.4 billion and
       liabilities of $11.4 billion.


THE OFFICE OF INSPECTOR GENERAL

       One of the strategic goals of the Office of Inspector General (OIG) is to assist the
       PBGC in operating more efficiently and effectively by identifying ways to improve
       PBGC's programs. To accomplish this goal, the OIG conducts agency audits,
       inspections, and investigations, and makes recommendations to PBGC
       management. In addition, the OIG is required statutorily to inform the agency
       head of fraud and other serious problems, abuses, and deficiencies relating to
       the programs and operations administered or financed by the PBGC,
       recommend corrective action concerning such problems, and report on the
       progress made in implementing corrective actions.

       The OIG staff consists of twelve (12) employees, of which two are investigators.
       In addition, we are in the process of hiring an information technology auditor.

       The Chief Financial Officers Act requires that a government corporation's
       financial statements be audited by the Inspector General, unless preempted by
       the General Accounting Office (GAO). The OIG contracted with an Independent
       Public Accountant (IPA) to perform the audit of the Corporation’s FY 2000
       financial statements.




SEPTEMBER 2001                                                                 PAGE 1
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION




AUDIT ACTIVITIES 

OVERVIEW

       The OIG provides independent analyses to management on a full range of
       PBGC's operations including programs, activities, functions, and funding. The
       OIG has full discretion in establishing audit objectives, plans, and priorities.
       During this reporting period, the OIG issued eight (8) reports (see TABLE 1) to
       help PBGC reduce costs and strengthen management controls. Below is a
       summary of the most significant of those reports. Our audits comply with
       GAO’s Government Auditing Standards, while the inspections comply with
       Quality Standards For Inspections published by the President's Council on
       Integrity and Efficiency.


AUDITS AND EVALUATIONS

       FISCAL YEAR 2000 FINANCIAL STATEMENT AUDIT –
       MANAGEMENT LETTER (2001-13/23149-4)

       The OIG engaged PricewaterhouseCoopers, LLP (PwC) to audit PBGC’s financial
       statements of the Single-Employer and the Multiemployer Fund for the fiscal
       years (FY) ended September 30, 2000 and 1999. During our prior reporting
       period, the OIG issued opinions on the financial statements and management’s
       assertion concerning the system of internal control, and a report on compliance
       with laws and regulations (see OIG Report 2001-9/23149-2 and discussion in
       our previous Semiannual Report to Congress).

       As a follow-on to the financial statement audit, we issued a management letter
       report with findings concerning several control conditions, including the need to:

       ♦	 Develop procedures that would enable a more timely response in recording
          invoices as payables; compress the time frame for payment of invoices; and
          perform an internal study to determine compliance with the Prompt Pay Act.

       ♦	 Verify that system access is being properly authorized and properly
          terminated in a timely manner, and supporting documentation is being
          maintained.

       ♦	 Perform reconciliations of investment manager records with State Street
          Bank Custodial Services’ records in a timely manner.

       REVIEW OF SENSITIVE PAYMENTS
       FOR FISCAL YEAR 2000 (2001-14/23152)

       The OIG performed an audit of Sensitive Payments made to senior level officials
       in FY 2000. Sensitive payments encompass a wide range of executive functions
       including executive compensation, travel, official entertainment funds,
       unvouchered expenditures, consulting services, speaking honoraria and gifts,
       and executive perquisites. We found that the Corporation had improved its



SEPTEMBER 2001                                                               PAGE 2
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL       PENSION BENEFIT GUARANTY CORPORATION



       processing of executive travel vouchers. However, we noted that an obsolete
       GSA form was still being used in PBGC's electronic travel management system.




SEPTEMBER 2001                                                           PAGE 3 

SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION



       PBGC’S USE OF THE GOVERNMENT
       PURCHASE CARD FOR MICRO-PURCHASES
       (2001-16/23147)

       The OIG conducted an evaluation of PBGC’s use of the Government’s
       International Merchant Purchase Authorization Card (purchase card) for micro-
       purchases. PBGC requires departments to use the card for purchases of
       supplies or services below $2,500. We found weaknesses in PBGC’s
       management of the card program and employees’ use of the purchase card.
       Controls available to limit Cardholder’s expenditures were not consistently used,
       exceptions were not documented, payment and budgetary controls were not
       enforced, and oversight was lacking. We suggested that PBGC reassess the
       policies and procedures governing card use and strengthen oversight of the
       program.

       PENETRATION TESTING 2001 - AN UPDATE
       (2001-18/23148-2)

       The OIG engaged the PricewaterhouseCoopers Technology Security group to
       conduct a penetration retest of PBGC's network security. This testing, which
       focused on gaining access to PBGC systems and resources and escalating
       privileges on those systems, was a follow-up on computer security testing we
       conducted in 1999. At that time, we found significant computer security
       vulnerabilities and notified PBGC that we would retest the identified
       weaknesses.

       The penetration retest found that PBGC significantly improved security over
       network resources used to provide protection from malicious external and
       insider attacks. We did find that not all PBGC accounts had strong passwords
       and instances where unauthorized personnel were allowed access to PBGC office
       areas. In addition to the publicly available report, we also produced a detailed
       report for responsible PBGC officials (OIG Report 2001-10/23148) which is
       restricted because it contains sensitive and proprietary data.

       PBGC'S CONTROLS OVER HANDLING AND
       PROCESSING THE ORIGINAL PROOF DOCUMENTS
       REQUIRED FOR BENEFIT ELIGIBILITY
       (2001-19/23160)

       At the request of PBGC management, the OIG evaluated PBGC's controls over
       the handling and processing of original proof documents that it requires
       participants and beneficiaries to submit for benefit eligibility determinations.
       PBGC had received complaints from individuals regarding the return of their
       original proof documents.

       We noted that prior procedures failed to establish controls to adequately segregate
       duties, safeguard original proof documents, and monitor the return of those
       documents to participants. For example, prior procedures lacked key controls such
       as physical security of original documents and chain of custody documentation.

       PBGC’s new procedures establish key controls throughout the process which
       enhanced the security of original documents from their receipt, through processing
       and finally to their return to participants. At the time of our testing, we found that
       the controls incorporated in the new procedures appeared to be operational.


SEPTEMBER 2001                                                               PAGE 4
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL   PENSION BENEFIT GUARANTY CORPORATION




SEPTEMBER 2001                                                       PAGE 5 

SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION



AUDIT FOLLOW-UP AND RESOLUTION

       The audit follow-up system at PBGC is integral to effective management and is a
       shared responsibility of PBGC management and the OIG.             The OIG has
       established an audit follow-up system to document management's actions and
       assure prompt resolution of audit recommendations. Moreover, this OIG system
       provides for a record of actions taken by PBGC management on OIG and GAO
       recommendations.

       The Office of Management and Budget (OMB) Circular A-50 requires that audit
       recommendations be resolved within six (6) months of issuance. The OMB
       guidance provides that audit recommendations are resolved when agency
       management and the OIG reach agreement on firm plans of action to correct
       reported weaknesses.       Resolution, however, does not mean an audit
       recommendation is closed. The OIG closes audit recommendations only when it
       determines that corrective actions have been completed by the agency.

       In our Semiannual Listing of Audit Recommendations (OIG Report 2001-
       17/32101) we reported that there were seventy-two (72) open audit
       recommendations, of which sixty-two (62) were outstanding audit
       recommendations from prior reporting periods. The agency reviewed and
       reported to the OIG on their actions to address the recommendations. The OIG
       concurred that management had presented sufficient evidence to close two (2)
       audit recommendations. We reported that seventy (70) audit recommendations
       remained open on September 30, 2001 (Semiannual Report on Follow-up of Audit
       Recommendations, OIG Report 2001-20/32102).


ACCESS TO INFORMATION

       Under the Inspectors General Act, the Inspector General is to have unfettered
       access to all agency records, information, or assistance when engaged in an
       investigation or audit. Whenever access to requested records, information, or
       assistance is unreasonably refused or not provided, the Inspector General must
       promptly report the denial to the agency head. During this six-month reporting
       period, the Inspector General’s access to information was not restricted.


PBGC MANAGEMENT - INSPECTOR GENERAL
DISAGREEMENTS

       Semiannually, the OIG reports on the status of all unresolved audit reports that
       are more than six months old.        These reports include: (1) reason(s) for
       unresolved reports and a timetable for their resolution; (2) actions taken or
       proposed on all unresolved reports or recommendations; and (3) age of
       unresolved recommendations.       For this reporting period, there were no
       unresolved audit reports in which PBGC management decisions are pending.
       In a prior period, however, PBGC disagreed with a recommendation contained in
       the Fiscal Year 1998 Financial Statement – Management Letter (99-8/23132-3).
       PBGC management commented on the Report and concurred “with its
       recommendations except for one item.” PBGC disagreed with a recommendation
       which states that PBGC should “modify existing Insurance Operations
       Department (IOD) procedures to require retention of source documentation


SEPTEMBER 2001                                                              PAGE 6
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION



       generated as a result of the participant data audits and used to calculate benefit
       payments and value the PVFB (Present Value of Future Benefits) liability.”

       The OIG feels strongly that in order for PBGC to adequately manage its program
       and to ensure the proper calculation of each participant’s guaranteed benefit, it
       is imperative that supporting documentation for all critical data elements be
       collected and retained. During the prior reporting period, PBGC sought and
       received permission from to the National Archives and Records Administration to
       destroy paper copies of source documentation from participants and plan
       sponsors that is imaged in the Image Processing System (IPS). The OIG has
       noted its concern about this destruction of paper records.

       The OIG had planned to finalize a report on its analysis of the data elements
       necessary to calculate guaranteed benefits and, thus, which require supporting
       source documentation. Our plans changed, however, when we got further into a
       review we are conducting at the request of the United States Senate’s Special
       Committee on Aging and Committee on Small Business (Committees). The
       Committees asked us to determine the accuracy of benefit determinations that
       PBGC issues to participants. This review includes:

        ♦   examining source documentation that supports the critical data elements
            necessary to calculate participants’ benefits accurately;
        ♦   with actuarial support, identifying the critical data elements of a benefit
            calculation; and
        ♦   examining source documentation and recalculating the benefits of a
            statistically valid sample of participants.

       When our review is completed, we will issue a draft report to PBGC management
       for comment. This report will discuss the need to identify, acquire and retain
       source documentation for critical data elements. We will continue to work with
       PBGC management to resolve this disagreement.




SEPTEMBER 2001                                                               PAGE 7
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL              PENSION BENEFIT GUARANTY CORPORATION




                                          TABLE 1

                      INSPECTOR GENERAL ISSUED REPORTS
                         For The Six-month Period Ending
                              SEPTEMBER 30, 2001

                                                      DOLLAR       DOLLAR        DOLLAR
                                                     VALUE OF     VALUE OF      VALUE OF
 REPORT                                   DATE      QUESTIONED     BETTER      UNSUPPORTED
 NUMBER          REPORT TITLE            ISSUED       COSTS      USED FUNDS       COSTS

Audits

2001-13/   FY 2000 Financial             9/17/01        -0-           -0-           -0-
23149-4    Statement Audit -
           Management Letter
2001-14/   Review of Sensitive           6/1/01         -0-           -0-           -0-
23152      Payments for FY 2000


Evaluations

2001-10/   Penetration Testing 2001-     8/28/01         -0-           -0-          -0-
23148      Update (Restricted)
2001-16/   PBGC’s Use of the             8/22/01         -0-           -0-          -0-
23147      Government Purchase Card
           for Micro-purchases
2001-17/   Semiannual Listing of Audit   7/31/01         -0-           -0-          -0-
32101      Recommendations
2001-18/   Penetration Testing 2001-An   8/28/01         -0-           -0-          -0-
23148-2    Update
2001-19/   PBGC’s Controls Over          9/20/01         -0-           -0-          -0-
23160      Handling and Processing the
           Original Proof Documents
           Required For Benefit
           Eligibility
2001-20/   Semiannual Report on          9/30/01         -0-           -0-          -0-
32102      Follow-up of Audit
           Recommendations




SEPTEMBER 2001                                                                  PAGE 8
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                 PENSION BENEFIT GUARANTY CORPORATION




                                                    TABLE 2       *


                          REPORTS ISSUED WITH QUESTIONED COSTS
                              For The Six-month Period Ending
                                   SEPTEMBER 30, 2001


                                                                 NUMBER
                                                                      OF          QUESTIONED     UNSUPPORTED
                                                                REPORTS             COSTS           COSTS

 A.    For which no management decision has
       been made by the commencement of the
       reporting period                                               0                 -0-          -0-

 B.    Which were issued during the reporting
       period                                                         0                 -0-          -0-

       Subtotal ( Add A & B)                                          0                 -0-          -0-

 C. 	 For which a management decision was
      made during the reporting period                                0                 -0-          -0-

       (i)       dollar value of disallowed costs                     0                 -0-          -0

       (ii) 	    dollar value of costs not
                 disallowed                                           0                 -0-          - 0-

 D.    For which no management decision has
       been made by the end of the reporting
       period                                                         0                 -0-          -0-

 E.    Reports for which no management
       decision was made within six months of
       issuance                                                       0                 -0-          -0-




* This statistical information is required by the Inspector General Act of 1978, as amended.




SEPTEMBER 2001                                                                                     PAGE 9
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                              PENSION BENEFIT GUARANTY CORPORATION




                                                    TABLE 3       *


                          REPORTS ISSUED WITH RECOMMENDATIONS 

                             THAT FUNDS BE PUT TO BETTER USE 

                               For The Six-month Period Ending

                                    SEPTEMBER 30, 2001



                                                                                     NUMBER
                                                                                        OF      DOLLAR
                                                                                    REPORTS     VALUE

 A.    For which no management decision has been made by the
       commencement of the reporting period                                              0        -0-

 B.    Which were issued during the reporting period                                     0        -0-

       Subtotal ( Add A & B)                                                             0        -0-

 C. 	 For which a management decision was made during the
      reporting period                                                                   0        -0-

       (i)         dollar value of recommendations that were agreed
                   to by management                                                      0        -0-

              --   based on proposed management action                                   0        -0-

              --   based on proposed legislative action                                  0        -0-

       (ii)        dollar value of recommendations that were not
                   agreed to by management                                               0        -0-

 D.    For which no management decision has been made by the
       end of the reporting period                                                       0        -0-

       Reports for which no management decision was made
       within six months of issuance                                                     0        -0-




* This statistical information is required by the Inspector General Act of 1978, as amended.




SEPTEMBER 2001                                                                                  PAGE 10
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION




INVESTIGATORY ACTIVITIES 

OVERVIEW
       The Inspector General is authorized to receive and investigate complaints from
       PBGC employees, the public, and other sources concerning violations of law,
       rule, or regulation; mismanagement; gross waste of funds; abuse of authority; or
       a substantial and specific danger to the public health and safety. Individuals
       may disclose information or make complaints to the Inspector General through
       the OIG "Hotline." (See announcement on back cover page.) The Inspector
       General has a policy to protect the legal rights of whistleblowers and
       complainants. At all times, the Inspector General takes reasonable precautions
       not to disclose the identity of the complainant without that person's consent.

       When we receive an allegation, we review it to determine its sensitivity and need
       for immediate OIG investigation, or whether it can be referred to the agency for
       review and corrective action. Allegations designated as priority, e.g., those
       involving criminal violations and sensitive administrative matters, receive
       immediate attention. These investigations use more time and resources, often
       requiring a team approach. To meet these challenges, the OIG has undertaken
       many strategies to responsibly investigate allegations that are brought to us,
       including hiring former federal investigators as contractors. Even with these
       additional contract resources, we have had to cease investigation activities and
       close some cases administratively. Though we have systematically reduced our
       investigative caseload, our limited investigative staff causes an inability to
       investigate allegations timely, which is unacceptable to us.

ACTIVITY THIS PERIOD
       The OIG received fourteen (14) complaints or allegations, and closed nine (9)
       investigative cases during the reporting period. As of September 30, 2001, forty-
       five (45) cases remain open (see Table 4 for investigative program statistics).

       OIG HOTLINE
       The OIG operates a separate "1-800" hotline telephone number and a post office
       box. The Hotline telephone is answered by an investigative staff assistant for a
       two-hour period, Monday through Friday; at all other times there is a message
       that provides information about the Hotline service.

       For the period April 1, 2001 through September 30, 2001, we received a total of
       nine (9) Hotline inquiries. Eight of the nine contacts were first-time inquiries
       relating to pension benefit questions, which were referred to the agency for
       action. The OIG provided customer assistance to one (1) caller. We did not open
       any cases from our Hotline contacts this period.




SEPTEMBER 2001                                                              PAGE 11
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION



       SIGNIFICANT INVESTIGATIONS

       PENSION FRAUD CASES

       During this period, we closed four cases that raised issues of fraud relating to
       pension benefits. One of our investigations into the fraudulent payment of
       pension benefits resulted in an agreement to repay PBGC $11,456. PBGC had
       issued twenty-eight (28) pension checks to a participant after his death but prior
       to obtaining notice that he died. All twenty-eight checks were cashed. By
       working with local law enforcement and interviewing a cooperating family
       member, we identified the deceased participant’s daughter as the one who had
       cashed the checks. Subsequently, the daughter signed a repayment agreement
       with PBGC.

       In three (3) cases, we investigated whether the pension plan participant had
       forged his spouse’s signature on the form that waives the spouse’s right to
       retirement benefits. One case resulted in the spouse receiving a survivor’s
       pension benefit after our investigation showed that the signature on the waiver
       form was fraudulent. In two other cases, because the spouses who initially
       made the allegation of fraud refused to cooperate in the investigations, the cases
       were closed and the spouses are not entitled to spousal benefits.


       CONTRACTOR ISSUES

       We conducted several cases this period involving misconduct by PBGC
       contractors. One case involved accessing and distributing pornography using
       PBGC’s electronic resources, including e-mail, the Internet, and photocopy
       machines. The investigation uncovered a core group of contract employees
       engaging in this misconduct. The contractor management was responsive to the
       investigation, and terminated the employment of eleven (11) contract employees
       We also made referrals to two (2) other government agencies from pornography
       that was sent from their e-mail systems.

       Another case involved alleged contractor mistreatment of PBGC employees and
       other contractors. After conducting a few interviews, we facilitated meetings
       with appropriate PBGC managers, who took swift action. As a result, the
       contractor’s interaction with PBGC employees and other contractors was
       curtailed, the current project was completed, and the contract was not
       continued.

       LOST ORIGINAL DOCUMENTS

       A PBGC Division reported that several original documents that participants had
       sent to PBGC were lost or stolen. When we met with the Division managers it
       became clear that there were too many times when the original documents were
       not safeguarded to be able to determine who may be responsible for the loss or
       theft. We reviewed the document handling process with the managers and
       recommended implementation of document handling controls such as limiting
       access to the documents, locking them up when employees are not at their
       desks, maintaining a chain of custody log, and returning them to participants in
       a secure manner.      The managers developed new procedures that PBGC
       management asked the OIG audit to review. This review concluded that the
       procedures established key controls throughout the process which enhanced the


SEPTEMBER 2001                                                               PAGE 12
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL         PENSION BENEFIT GUARANTY CORPORATION



       security of original documents (see discussion of PBGC'S Controls Over Handling
       and Processing Original Proof Documents, 2001-19/23160, at 3 of this Report).




SEPTEMBER 2001                                                             PAGE 13 

SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                 PENSION BENEFIT GUARANTY CORPORATION




                                                       TABLE 4

                             STATISTICAL TABLES OF INVESTIGATIONS
                                 For The Six-month Period Ending
                                      SEPTEMBER 30, 2001


CASE LOAD

                    Pending beginning of period                                                     40
                    Opened this period**                                                            14
                    Closed this period                                                               9
                    Pending end of period ***                                                       45


WRONGDOING ALLEGED (CASES OPENED)

                    Fraud, Waste & Abuse                                                                3
                    Wrongdoing                                                                          5
                    Improprieties Relating to Pension Benefits                                          6


RESULTS OF CASES CLOSED

                    Allegation disproved or not substantiated                                           3
                    Referred to agency for corrective action                                            2
                    Worked with agency to develop corrective action                                     1
                    Fraudulent waiver of spousal pension benefits                                       1
                    Agency disciplinary action                                                          1
                    Prosecution declined                                                                1
                       Monetary recovery ($11,457)


HOTLINE AND MAIL INQUIRIES

                    Received this period                                                                9

                               First time caller referrals to agency                       8
                               Mail referrals to agency                                    0
                               OIG Customer Assistance                                     1
                               Cases opened                                                0




** Of the nine new cases opened this period, none resulted from Hotline and mail inquiries.
*** Thirty-five of the forty--six investigative cases that are open are from prior reporting periods.


SEPTEMBER 2001                                                                                              PAGE 14
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION




OTHER OFFICE OF INSPECTOR
GENERAL ACTIVITIES
REVIEW OF PROPOSED STATUTORY
AND REGULATORY CHANGES

       To comply with the IG Act, the OIG Legal Counsel is notified by the Office of the
       General Counsel when the agency is proposing legislative and regulatory
       changes. During this period, the agency proposed regulations relating to
       premium payments by pension plan sponsors and benefit payments made by
       PBGC. We provided written comments and also met with the Office of the
       General Counsel.

       We also review a proposed financial management policy and procedures
       directive, noting changes PBGC needed to implement based on an OIG
       evaluation of PBGC’s use of the government-wide purchase card (see PBGC’S
       Use of the Purchase Card for Micro-Purchases, 2001-16/23147, at 3 of this
       Report).



OIG AND AGENCY CONSULTATION

       The OIG engaged in several activities this period that included coordination and
       consultation with agency officials to improve agency operations.

       ♦	 We participated on a multi-departmental working group to address
          compliance with the Government Information Security Reform Act (GISRA).
          GISRA required government agencies to consider the state of information
          security over the data the agency has compiled and required the OIG and
          PBGC to prepare a joint report for submission to OMB.

       ♦	 We continue to participate in a PBGC multi-departmental team that
          addresses financial management systems integration.

       ♦	 The Inspector General is serving as a resource to PBGC’s Government
          Paperwork Elimination Task Force.



LIAISON WITH THE UNITED STATES
GENERAL ACCOUNTING OFFICE
       The OIG maintains close liaison with GAO. There was no GAO activity during
       the reporting period.




SEPTEMBER 2001                                                              PAGE 15
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION




STRATEGIC PLANNING 

       The OIG uses a strategic planning process to: (1) identify PBGC’s functional
       risks, and (2) maximize the effectiveness of limited resources by focusing on
       those areas most critical to organizational success. Our planning is performed
       at two levels: first, by identifying the critical functional areas; and second, by
       examining specific risks affecting PBGC operations. This planning effort is then
       used to select risk areas for specific audits and inspections.

       As the result of our strategic planning process, we are continuing the five risk
       areas that we previously identified.

       ♦   Procurement of and Performance by Contractors

       ♦   Pension Liabilities 

       ♦   Systems Integration 

       ♦   Integrity of Benefit Payment and Premium Systems 

       ♦   Asset Management 


       Based on government-wide issues and audit work we have conducted at PBGC,
       we added a sixth risk area this year:

       ♦   Security of Information Technology Resources

       This report section summarizes OIG’s work associated with the six risk areas
       conducted during FY 2001 (October 1, 2000 through September 30, 2001). In
       addition, we provide a brief description of our FY 2002 audit and inspection
       plans in each risk area.

RISK AREAS AND OIG ACTIVITIES
       PROCUREMENT OF AND PERFORMANCE
       BY CONTRACTORS

       PBGC uses a large number of contractors, which poses unique risks permeating
       virtually every aspect of PBGC's business. It is essential that proper controls be
       in place and functioning to ensure procurement policies are followed and
       contractor performance is properly monitored.

       FY 2001 Activity

       ♦	 During the audit of PBGC’s financial statements (see OIG Report 2001-
          9/23149-2), we reviewed selected contractor performance by testing
          compliance with PBGC’s policies and procedures. In a companion report
          (see OIG report 2001-13/23149-4), we recommended developing procedures
          that would enable a more timely response in recording invoices as payables;
          compressing the time frame for payment of invoices; and performing an
          internal study to determine compliance with the Prompt Pay Act.

       ♦	 The Premium Compliance Review (PCR) program was established to audit
          pension plans' compliance with premium payment requirements.          We
          reviewed contractor work for compliance with the PCR procedures, contract
          terms, and professional audit standards (see OIG Report 2001-2/23142).


SEPTEMBER 2001                                                               PAGE 16
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION



           We found that some contractors’ work did not fully meet professional audit
           standards, was of poor quality, and in some instances was incomplete. We
           also found that some contractor employees did not meet the experience
           qualifications of the contract. We noted inconsistent contract monitoring
           contributed to the contractors’ performance issues.

       ♦	 We conducted an evaluation of PBGC’s use of the Government’s
          International Merchant Purchase Authorization Card (purchase card) for
          micropurchases, i.e., acquisition of supplies or services that does not exceed
          $2,500 (see OIG Report 2001-16/23147). We identified weaknesses in the
          management of the micropurchase program and employees’ use of the
          purchase card.

       Projected FY 2002 Activity

       ♦	 We plan to follow-up on our review of PBGC’s use of the purchase card and
          the effectiveness of controls for other credit cards used by PBGC.

       ♦   We plan to review selected contracts for performance and compliance.

       PENSION LIABILITIES

       The primary areas of focus include accuracy and timeliness of the pension
       liability components. The accuracy issue includes whether all components of
       the liability have been considered and whether factors used for each component
       are supported with sufficiently detailed data. This area has been raised in past
       OIG and GAO reports and will be monitored to ensure progress is made and
       deficiencies overcome. With respect to timeliness, it is essential that PBGC
       calculate the final amount due individual plan participants in a timely manner.
       This area has negative implications to both participants and PBGC, as pension
       benefit payments may be inaccurate until this process has been completed, and
       overpayments may become uncollectible.

       FY 2001 Activity

       ♦	 As part of the financial statement audit, the OIG examined PBGC’s
          calculation of the present value of future benefits (PVFB) for terminated
          plans (see OIG Report 2001-9/23149-2). One of the three reportable
          conditions presented in the report on internal control found that PBGC
          needs to improve controls surrounding the Participant Records Information
          Systems Management (PRISM) application.

       ♦	 As a follow-up to the high-level financial statement audit work of PRISM that
          resulted in a reportable condition, we evaluated the effectiveness of PRISM’s
          controls surrounding benefit payments (see OIG Report 2001-7/23146-2).
          Our PRISM evaluation identified system vulnerabilities and determined that
          certain types of unauthorized payments could be generated. We identified
          control weaknesses and suggested that PBGC enhance access controls by
          implementing formal auditing, monitoring, reviewing, and logging procedures
          for system actions impacting on benefit payments. In addition to the written
          report, we provided a hands-on demonstration of our findings for PBGC
          management.

       ♦	 At the request of the United States Senate’s Special Committee on Aging and
          the Committee on Small Business (Committees), we initiated a review to


SEPTEMBER 2001                                                              PAGE 17
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION



           determine (1) the accuracy of PBGC’s benefit determinations as represented
           in its notification to participants and (2) the availability of documentation to
           support PBGC’s accuracy assertions.           In addition, we will review the
           schedule of appeals decisions issued during FYs 1999 and 2000.




SEPTEMBER 2001                                                                 PAGE 18
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION




      Projected FY 2002 Activity

       ♦	 The pension liability risk area will be reviewed during PBGC’s financial
          statements audit.

       ♦   We will continue our review of the accuracy of IDLs and appeals decisions.

       ♦   We plan to review PBGC’s standard determination process.

       SYSTEMS INTEGRATION

       PBGC has recognized problems in systems integration and responded with short
       and long-term solutions. Since a large portion of PBGC’s business is automated
       and depends upon the proper functioning of an integrated network of systems,
       the OIG will continue involvement in this risk area. Offering advice and
       technical assistance, the OIG will work with PBGC to help ensure an integrated
       network of systems is built, maximizing productivity while retaining sufficient
       controls to mitigate user risks. In addition, the OIG will be involved in interim
       reviews of the system processes to determine whether controls are operating
       effectively.

       FY 2001 Activity

       ♦	 During the financial statements audit, PBGC’s financial management
          systems were reviewed (see OIG Report 2001-9/23149-2). The report on
          internal control continued the reportable condition that the financial
          systems lacked integration. We again found that PBGC did not meet the
          requirements of OMB Circular A-127 regarding an integrated financial
          management system. We also identified that PBGC lacked a formal Systems
          Development Life Cycle Methodology (SDLC) which significantly impacted
          upon consistency of systems development initiatives.          In addition, we
          reported that PBGC lacked specific criteria to adequately manage its systems
          development projects that are outsourced to external vendors. Lack of
          systems integration inhibits management’s ability to accumulate and
          summarize information required for management decision-making purposes.
          (This is one of three reportable conditions presented in the report.)

       ♦	 The OIG updated its understanding of PRISM, an integrated information
          system developed to support PBGC’s Insurance Operations Department
          (IOD) in administering pension plan customers (see OIG Report 2001-
          6/23146-1). With an understanding of PRISM’s processes, we traced the
          affect of test transactions through PRISM applications, and identified
          potential control weaknesses in processing benefit payments. Based upon
          our testing, we identified opportunities for PBGC to enhance its current
          control and processing environment.

       Projected FY 2002 Activity

       �	 We will continue to assess PBGC’s system integration issues during our
          financial statement audits.

       �	 We plan to initiate system reviews for the Case Administration System and
          the Integrated Present Value of Future Benefits System that are mission



SEPTEMBER 2001                                                              PAGE 19
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION



           critical systems supporting the calculation of PBGC’s pension liability. We
           will focus primarily on controls and data integrity issues.


       INTEGRITY OF BENEFIT PAYMENT
       AND PREMIUM SYSTEMS

       The volume of PBGC’s benefit payment and premium collection systems makes
       these critical areas warranting continuous monitoring by the OIG. With benefit
       payments of more than $75 million per month, and contractors largely involved
       in the process, PBGC’s monitoring function must be able to examine payments
       on a global and individual basis. With respect to the premium collection system,
       PBGC’s monitoring process must be sufficient to ensure payment status is
       captured for all insured pension plans and premiums are paid in the proper
       amount. Periodic monitoring should be performed to test data submitted by
       insured plans and ensure adjustments are sought when necessary.

       FY 2001 Activity

       . 	 During the audit of PBGC’s financial statements, PBGC’s Premium
           Accounting System (PAS) was reviewed and the present value of future
           benefits (PVFB) calculation for terminated plans was tested (see OIG Report
           2001-9/23149-2). Our audit identified areas where monitoring and
           information technology controls could be strengthened to reduce risks
           associated with the benefit payment process, participant record integrity,
           and protection of information residing on its systems.

       ♦	 In the financial statement audit management letter report (see OIG Report
          2001-13/23149-4), we found that system user access was not always
          properly approved or terminated. We recommended that PBGC verify that
          systems access is being properly authorized and properly terminated in a
          timely manner, and supporting documentation is being maintained.

       ♦	 PBGC management requested that we evaluate controls regarding handling
          and processing of original proof documents required for benefit eligibility and
          subsequent benefit payment determinations (see OIG Report 2001-
          19/23160). We noted that prior procedures failed to establish controls to
          adequately segregate duties, safeguard original proof documents and return
          them to participants. We found that PBGC’s new procedures implement key
          controls throughout the process which enhanced the security of original
          documents from their receipt, through processing, and finally to their return
          to participants.

       ♦	 We completed our survey of the Premium Accounting System (PAS) where we
          updated our understanding of the current operational environment.

       ♦	 We evaluated the effectiveness of PRISM’s controls surrounding benefit
          payments (see OIG Report 2001-7/23146-2). Our PRISM evaluation
          identified system vulnerabilities and determined that certain types of
          unauthorized payments could be generated. In addition to the written
          report, we provided a hands-on demonstration of our findings for PBGC
          management.

       Projected FY 2002 Activity



SEPTEMBER 2001                                                               PAGE 20
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL         PENSION BENEFIT GUARANTY CORPORATION



       �	 We will continue to address the integrity of benefit payment and premium
          systems during our financial statement audit.

       ♦   We plan to follow-up on our PAS survey and risk assessment.

       �   We plan to address broad-based data and system integrity issues.


       ASSET MANAGEMENT

       With approximately $21 billion in assets, oversight over security and
       performance should be a continuous task. Many of these assets are managed
       by contractors and require an additional level of scrutiny concerning how and
       where they are invested, and whether performance is as expected. PBGC needs
       to be proactive in establishing proper controls up-front, and then monitoring
       and reacting as necessary to variances that may occur.

       FY 2001 Activity

       ♦	 During the annual financial statements audit, selected investment managers
          and their performance were reviewed (see OIG Report, 2001-9/23149-2).
          These reviews included the contractors’ controls as they related to
          implementing PBGC’s investment policies, completing securities transactions
          and investment manager performance.

       ♦	 In the financial statement audit management letter report (see OIG Report
          2001-13/23149-4), we found that PBGC was not always performing
          reconciliation of investment manager records with State Street Bank
          Custodial Services’ records in a timely manner.

       ♦	 As part of our review of the PCR program (see OIG Report 2001-2/23142),
          we found that PBGC continued to issue manually generated Statements of
          Account (SOA). The SOA presents the premium calculation, interest, and
          penalties for late payments; deducts amounts already paid; and tabulates
          the amount due. Not only is PBGC not in compliance with its own policy,
          but the practice of issuing manually prepared SOAs adds significant risk in
          the safeguarding of assets and ensuring that premiums are accurately
          reported.

       Projected FY 2002 Activity

       ♦	 We will continue to monitor PBGC’s management of assets during our
          financial statement audit.

       SECURITY OF INFORMATION
       TECHNOLOGY RESOURCES

       Information technology (IT) security provides management control over who can
       do what within computer systems and networks. The importance of IT security
       has significantly increased because of the phenomenal growth in Internet usage,
       the move toward e-government, and the deployment of intranets. In addition,
       the government has been subject to increasing attacks by hackers, information
       viruses, employee fraud, and computer abuse. Government agencies will need
       to focus on balancing adequate protection with end-user productivity, and the
       expenses of administering and auditing security across a wide variety of


SEPTEMBER 2001                                                                PAGE 21
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION



       computer and networking systems. Management must be diligent in re-
       evaluating IT security and related risk within their organization to keep pace
       with technology direction.

       FY 2001 Activity

       ♦	 The OIG performed a security review of a UNIX server that hosts the
          Performance Accounting System. The review evaluated the security controls
          to determine whether only those with authorization had access to the
          sensitive information in the Performance Accounting System. Since the
          report contains sensitive and proprietary information, its release is
          restricted.

       �	 The United States Senate’s Special Committee on Aging and the Committee
          on Small Business (Committees) became interested in the results of our
          penetration testing (see OIG Report 2000-3/23137-3). They requested PBGC
          to formulate a Corrective Action Plan and implement that plan by September
          30, 2000. The OIG was asked to monitor the implementation of the
          corrective actions and report to the Committees. We found that PBGC had
          taken action on our findings presented, and we validated its actions as
          appropriate.

           To further test PBGC’s corrective actions, we performed a second penetration
           test of PBGC's network security. Much like the original penetration test
           conducted during FY 2000, we again tested to attempt unauthorized
           assesses to PBGC systems and resources. Our second penetration testing
           found that PBGC significantly improved security over network resources
           used to provide protection from malicious external and insider attacks.
           However, we did identify that not all PBGC accounts had strong passwords
           and instances where unauthorized personnel were allowed physical access to
           PBGC office areas (see OIG Report 2001-18/23148-2).

       ♦	 We participated on a multi-departmental working group to address
          compliance with the Government Information Security Reform Act (GISRA).
          GISRA required government agencies to consider the state of information
          security over the agency’s data. GISRA mandates that particular events
          occur annually: (1) agency program reviews; (2) OIG evaluations; (3) an
          agency report to the Office of Management and Budget (OMB) concerning the
          results of the Inspector General evaluations and its own program reviews;
          and (4) an OMB report to Congress summarizing the materials received from
          the agencies. The OIG based its responses to certain OMB questions on
          independent evaluations, reviews, and assessments that we had recently
          conducted. The OIG and the agency issued a joint report to OMB. The OIG
          has a separate review plan for PBGC systems and will update its
          methodology to incorporate the requirements of GISRA.

       Projected FY 2002 Activity

       ♦	 We will continue to review PBGC’s security risk issues and report status as
          required.




SEPTEMBER 2001                                                              PAGE 22
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                PENSION BENEFIT GUARANTY CORPORATION




                                             TABLE 5

                             CROSS-REFERENCE TO REPORTING
                       REQUIREMENTS OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the specific pages in the report where they are
addressed.



  Inspector General
    Act Reference       Reporting Requirements                                      Page


Section 4 (a) (2)       Review of legislation and regulations.                       12

Section 5 (a) (1)       Significant problems, abuses, and deficiencies.            2 – 5,
                                                                                    10

Section 5 (a) (2)       Recommendations with respect to significant problems,      2 – 5,
                        abuses, and deficiencies.                                   10

Section 5 (a) (3)       Prior significant recommendations on which corrective        5
                        actions has not been completed.

Section 5 (a) (4)       Matters referred to prosecutive authorities.                None

Section 5 (a) (5)       Summary of instances where information was refused.          4


Section 5 (a) (6)       List of audit reports by subject matter, showing dollar      6
                        value of questioned costs and funds put to better use.


Section 5 (a) (7)       Summary of each particularly significant report.           2 – 5,
                                                                                    10

Section 5 (a) (8)       Statistical table showing number of reports and dollar       7
                        value of questioned costs.

Section 5 (a) (9) 	     Statistical table showing number of reports and dollar       8
                        value of recommendations that funds be put to better
                        use.

Section 5 (a) (10) 	    Summary of each audit issued before this reporting          None
                        period for which no management decision was made by
                        end of reporting period.

Section 5 (a) (11)      Significant revised management decisions.                   None

Section 5 (a) (12)      Significant management decisions with which the             4-5
                        Inspector General disagrees.




SEPTEMBER 2001                                                                    PAGE 23
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION




GLOSSARY 

The following defines the terms used in this report.


Questioned Cost 	      A cost the OIG has questioned because of an alleged
                       violation of law, regulations, contract, grant, cooperative
                       agreement, or other agreement or document governing the
                       expenditure of funds; such cost is not supported by
                       adequate documentation; or the expenditure of funds for the
                       intended purpose is unnecessary or unreasonable.

Unsupported Cost	      A cost the OIG has questioned because of a lack of adequate
                       documentation at time of the audit.

Disallowed Cost 	      A questioned cost that management, in a management
                       decision, has sustained or agreed should not be charged to
                       the government.

Funds To Be Put To Funds the OIG has identified in an audit recommendation
Better Use	        that could be used more efficiently by reducing outlays,
                   deobligating program or operational funds, avoiding
                   unnecessary expenditures, or taking other efficiency
                   measures.

Management             Management's evaluation of audit findings and
Decision               recommendations and issuance of a final decision
                       concerning management's response to such findings and
                       recommendations.

Final Action	          The completion of all management actions -- that are
                       described in a management decision -- with respect to audit
                       findings and recommendations. If management concluded
                       no actions were necessary, final action occurs when a
                       management decision is issued.


Misconduct	            Action of employees or contractors that violates law, rules,
                       or regulations for which corrective action is warranted.




SEPTEMBER 2001                                                                 PAGE 24
IF   YOU WANT TO REPORT OR DISCUSS CONFIDENTIALLY
ANY INSTANCE OF MISCONDUCT, FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT, PLEASE CONTACT THE OFFICE OF

INSPECTOR GENERAL.


You can telephone:

      The Inspector General's HOTLINE

                  1-800-303-9737



Or you can write:


         Pension Benefit Guaranty Corporation

              Office of Inspector General

                    P.O. Box 34177

            Washington, D.C. 20043-4177

